SCOTT P. LEWIS
slewis@andersonkreiger.com
T: 617.621.6560
F: 617.621.6660

February 24, 2021
SEND BY FEDEX
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

No. 20-1106, Jane Doe v. Harvard Pilgrim Health Care, Inc.

Dear Mr. Harris:
I represent Respondent Harvard Pilgrim Health Care, Inc. in this case. Pursuant to Rule 30.4, I
am writing to request a 30-day extension of time to file Respondent’s brief in opposition to
certiorari.
The petition for a writ of certiorari was docketed on February 11, 2021. The current deadline for
Respondent to oppose the petition is March 15, 2021. If the requested extension of time is
granted, Respondent’s brief in opposition would be due on April 14, 2021.
Respondent respectfully requests this extension due to the press of other matters and the need to
carefully consider and thoroughly respond to the petition.
Thank you for your consideration.
Very truly yours,

Scott P. Lewis
Scott P. Lewis
Counsel of Record for Respondent
cc:

Peter K. Stris (by email)
Steven L. Schreckinger (by email)

ANDERSON & KREIGER LLP | 50 MILK STREET, 21st FLOOR, BOSTON, MA 02109 | 617.621.6500

